Sup.ume Court, U.S.
FILED

MAR - 2 2020
OFFICE OF THE CLERK

No. 19- icrto

InThe

Supreme Court of tfje ®ntteb l£>tateg
Bahig F. Bishay,
Petitioner,
v.

United States Department of Justice,
Respondents.

etal.,

On Petition For A Writ Of Mandamus To The
U.S. District Court For The District Of Columbia;
The U.S. Court Of Appeals For The District Of
Columbia Circuit
PETITION FOR WRIT OF MANDAMUS

Bahig F. Bishay
(Pro Se)
P.O. Box 396
Norwood, MA 02062
T: 781.551.0400
E: FBishay@earthlink.net

MAR - 5 2020

1

QUESTION PRESENTED
Against the backdrop of this Court’s most
recent guidance set forth in Weyerhaeuser Co., —
where the Court held, to wit: “The Administrative
Procedure Act creates a basic presumption of 'k'k'k
judicial review *** [for] one suffering legal wrong
because of agency action", citing Abbott Laboratories
and quoting 5 U.S.C. § 702, in both matters the
Court relied on the language set forth in Section 10
of the Administrative Procedure Act: “Any person
suffering legal wrong because of any agency action, or
adversely affected or aggrieved by such action within
the meaning of any relevant statute, shall be entitled
to judicial review thereof” — pursuant to 28 U.S.C. §
1331; § 1391(b); § 1651(a); § 1361; and § 2201 - did
the U.S. District Court err when it, notwithstanding
the clarity of the foregoing, dismissed, sua sponte,
(before the defendant agency answered the
complaint presented), proffering that U.S. District
Court[s] lack jurisdiction to judicially review
decisions *** of agencies not statutorily exempt from
judicial review *** under the explicit mandates set
forth in 5 U.S.C., § 701; § 702; § 703; § 704; § 705;
and § 706?

11

PARTIES TO THE PROCEEDINGS BELOW
The caption identifies the parties to the
proceedings below, as follows: U.S. Department of
Justice, the Federal Bureau of Investigation,
Christopher A. Wray in his individual and official
capacity as Director of the Federal Bureau of
Investigation, and James A. Crowell in his
individual and official capacity as Director of the
Executive Office for United States Attorneys.1
Respondents in this Court are the United
States District Court for the District of Columbia
and the United States Court of Appeals for the D.C.
Circuit. This because, as the record2 reflects, the
above referenced parties were not given an
1 To obviate the potential for confusion, in its Memorandum
Opinion dated April 30, 2019 (A-3), the District Court reported
that the Plaintiff did not also name the state judge and the
other individuals who defalcated the $3.7 in cash and other
property, as additional Defendants in the same action. The
reason should have been clear to the District Court. In that, the
said action was limited to the discrete issue of the “judicial
review” mandated pursuant to §§ 701-706 of the agency’s failure
to investigate and prosecute the said federal crimes, and that, in
due course, other proceedings are expected to take place in a
different tribunal within the District of Massachusetts.
Notwithstanding the District Court’s gratuitous statement,
however, all twenty four (24) individuals are listed in the
Concise statement relative to the criminal case the said agency
received from the Petitioner named here. [RA-19]
2 [RA-19] refers to the evidence presented below, available
through Pacer at Docket Entry: Appellate Brief [1797023] [195141] 07/12/2019, C.A.D.C.Cir.; (A-__) refers to the decisions of
the lower courts, the subject of this Petition.

Ill

opportunity by the District Court to, at a minimum,
answer the complaint, as a threshold matter.
Instead, however, the District Court erroneously
proffered, sua sponte, that it “lacked authority”,
notwithstanding the clarity of this Court’s holding in
Weyerhaeuser Co. and Abbott Laboratories; 5 U.S.C.,
§§ 701-706 and the Administrative Procedure Act, all
mandating just the opposite action to be taken by
the District Court.
RELATED PROCEEDINGS
Bahig F. Bishay v. U.S. Department of Justice,
et al., U.S. District Court for the District of
Columbia, Civil Action No. l:19-cv-01045 (UNA), the
subject of the within Petition; and Bahig F. Bishay v.
U.S. Department of Justice, et al., U.S. Court of
Appeals for the District of Columbia, No. 19-5141,
the subject of the within Petition.

IV

TABLE OF CONTENTS
QUESTION PRESENTED.........................
PARTIES TO THE PROCEEDINGS BELOWRELATED PROCEEDINGS......................
TABLE OF AUTHORITIES........ .....................
PETITION FOR A WRIT OF MANDAMUS....
OPINIONS BELOW.......................................... .
JURISDICTION..... ...................... .....................

RELEVANT STATUTORY PROVISIONS......
STATEMENT OF THE CASE....... .............

1
11

in
vi

1
2
2
3
3

RELIEF SOUGHT.............................................
17
REASONS FOR GRANTING THE PETITION....... 20
A. Bishay Has A Clear And Indisputable Right To
Relief From The District Court’s Refusal To Issue
The Mandamus Sought; In the Alternative, For The
District Court To “Judicially Review” The Agency’s
Action Or Inaction, Pursuant To The Administrative
Procedure Act Which Creates A Basic Presumption
Of Judicial Review [For] One Suffering Legal Wrong
Because Of Agency Action." 5 U.S.C. § 702.
23
B. Bishay Has No Other Adequate Means To Attain
The Discrete Relief Sought Below
31
C. Mandamus Relief Is Appropriate Under The
32
Circumstances
CONCLUSION

33

V

PETITIONER'S APPENDIX
Appendix-A:
United States Court of Appeals Judgment
dated September 17, 2019............................

:.a-i

Appendix-B:
United States Court of Appeals Order dated
September 3, 2019.............................................

A-4

Appendix-C:
District Court Order dated May 22, 2019

A-6

Appendix-D:
District Court Order dated April 29, 2019

A-8

Appendix-E:
District Court Memorandum Opinion dated
April 29, 2018 [sic].................................................

A-9

Appendix-F:
United States Court of Appeals Order dated
December 27, 2019.............................................

A-12

Appendix-G:
United States Court of Appeals Order dated
December 27, 2019..................................... ......

A-14

VI

TABLE OF AUTHORITIES
Page

Cases

Abbott Laboratories v. Gardner, 387 U.S. 136, 87
passim
S.Ct. 1507, 18 L.Ed.2d 681 (1967)
Cheney v. United States Dist. Court, 542 U.S. 367
passim
(2004)
Chevron, U.S.A., Inc. v. Natural Resources Defense
11-12
Council, 468 U.S. 1227 (1984)
Citizens to Preserve Overton Park v. Volpe, 401 U.S.
402 (1971)..................................................................... 10
Heckler v. Chaney, 470 U.S. 821, 105 S.Ct. 1649, 84
L.Ed.2d 714 (1985)...................................................... 25
In re Kellogg Brown & Root, 756 F.3d 754 (D.C. Cir.
2014).............................................................................. 32
Lincoln v. Vigil, 508 U.S. 182, 113 S.Ct. 2024, 124
L.Ed.2d 101 (1993).......... ......................................... 26
Mach Mining, LLC v. EEOC, 575 U.S.
1645, 191 L.Ed.2d 607 (2015)..........

, 135 S.Ct.
24

Motor Vehicle Manufacturers Association of the
United States, Inc. v. State Farm Mutual
Automobile Insurance, 463 U.S. 29 (1983)....

11

Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139
passim
S.Ct. 361, 202 L.Ed.2d 269 (2018)

Vll

Constitutional Provisions
U.S. Const. Article III

passim

U.S. Const. Fifth Amendment

passim

U.S. Const. Fourteenth Amendment

passim

Statutes
5 U.S.C. §§ 701-706

passim

11 U.S.C. § 362

passim

18 U.S.C. § 2

passim

18 U.S.C. § 4

passim

18 U.S.C. § 63

passim

18 U.S.C. Ch. 73, § 1509

passim

18 U.S.C. § 152

passim

18 U.S.C. § 3284

passim

18 U.S.C. §§ 1961-1968

passim

18 U.S.C. §§ 3663A and 3664

passim

28 U.S.C. § 1331; § 1391(b); § 1651(a); § 1361; and §
2201
passim
42 U.S.C. § 1983

passim

Vlll

The Mandatory Victims Restitution Act of 1996 [18
U.S.C., §§ 3663A and 3664]
passim
Rules
Rules 30-36 of the Fed.R.Civ.P.

29, 30

Other Authorities
Process for Victims of Federal Crimes
Section 13 of the Act of 1789

passim
18

-1 In the Supreme Court of the United States

No.
IN RE BAHIG F. BISHAY, PETITIONER

ON PETITION FOR A WRIT OF MANDAMUS TO
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COL UMBIA

PETITION FOR A WRIT OF MANDAMUS

Petitioner Bahig F. Bishay (“Bishay” or the
“Federal Victim”
interchangeably) respectfully
petitions for a writ of mandamus to the United
States District Court for the District of Columbia. In
the alternative, Bishay respectfully requests that the
Court treats this petition as a petition for a writ of
certiorari to review the Judgment of the United
States District Court for the District of Columbia, or
as a petition for a common-law writ of certiorari to
review the District Court’s decision dismissing, sua
sponte (before the defendants answered the
complaint presented), proffering it “lacked authority”
to “judicially review” the agency’s actions or
inactions, as required under the Administrative
Procedure Act, upon which this Court relied in
Weyerhaeuser Co. and Abbott Laboratories; 5 U.S.C.
§§ 701-706, and the U.S. Court of Appeals for the

-2D.C. Circuit’s failure to correct such erroneous
posture.
OPINIONS BELOW
The opinion of the District Court dismissing
the complaint, [RA-1], sua sponte, (A-l, infra), is not
published in the Federal Supplement but available
at 777 Fed. Appx. 526, 2019 WL 3074559 (C.A.D.C.)
and 4565657. The opinion of the Appeals Court,
affirming the District Court’s dismissal, (A-11,
infra), is not published in the Federal Supplement
but available at 777 Fed. Appx. 526, 2019 WL
3074559 (C.A.D.C.) and 4565657. The Judgment, Per
Curiam, denying a timely petition for a panel
rehearing3 or en banc review, (A-14-17, infra), is not
published in the Federal Supplement but available
at 777 Fed. Appx. 526, 2019 WL 3074559 (C.A.D.C.)
and 4565657.
JURISDICTION
The jurisdiction of this Court is invoked under
28 U.S.C. 1651. In the alternative, the jurisdiction
of this Court is invoked under 28 U.S.C. 1251(1).
The U.S. Appeals Court for the D.C. Circuit denied a

3 The term “rehearing” is used here for consistency only
based on the hmited list of procedures reflected in the Fed. R.
App. P., otherwise the docket reflects the following entry: “PER
CURIAM ORDER [1804686] filed that the court will dispose of
the appeal without oral argument on the basis of the record and
presentations in the briefs pursuant to Fed. R. App. 34(a)(2);
D.C. Cir. Rule 34(i). Before Judges: Tatel, Rao and Sentelle. [195141 [Entered: 09/03/2019 02:02 PM[” (A-9, infra).

-3timely appeal on September 17, 2019 (A-ll, infra);
the U.S. Court of Appeals for the D.C. Circuit denied
a timely petition for panel rehearing or en banc
review, (A-14-17, infra), Per Curiam, on December
27, 2019.

RELEVANT STATUTORY PROVISIONS
Administrative Procedure Act; 5 U.S.C., § 701, § 702,
§ 703, § 704, § 705 and § 706; 11 U.S.C., §362; 18
U.S.C., § 2, § 4, § 63, § 152, §§ 1961-1968, and §
3284; 18 U.S.C., Ch. 73, § 1509; 28 U.S.C., § 1331, §
1391(b), § 1651(a), § 1361 and § 2201; Mandatory
Restitution Act of 1996 [18 U.S.C., §§ 3663A and
3664]; Restitution Process for Victims of Federal
Crimes; Article III of the U.S. Constitution; 42
U.S.C., § 1983; and the Fourteenth Amendment to
the U.S. Constitution. Id.
STATEMENT OF THE CASE
1. Bishay commenced said District Court
action in April 2019, in his capacity of a $6.8 million
creditor [RA-38] of an entity known as U.S. Auto
Exchange Group, Ltd. (“USAX”), a corporate entity
previously
organized
under
the
laws
of
Massachusetts which filed for bankruptcy protection
in 2002 in the U.S. Bankruptcy Court for Eastern
Massachusetts, Case No. 02-10310-RS. [RA-31]
In the within matter, Bishay is defined as the
“Victim of Federal Crimes”, as set forth and so
described under the Mandatory Restitution Act of

- 41996, 18 U.S.C. §§ 3663A and 3664, promulgated by
the Department of Justice. Id.
In said complaint [RA-1], Bishay alleged that
Defendants U.S. Department of Justice, the Federal
Bureau of Investigation (FBI), Christopher A. Wray
in his individual and official capacity as Director of
the Federal Bureau of Investigation, and James A.
Crowell in his individual and official capacity as
Director of the Executive Office for United States
Attorneys, abrogated strict federal mandates and
abridged Bishay’s constitutional right to the “due
process of law” guaranteed under the Fifth and the
Fourteenth Amendments to the United States
Constitution, and did so in their [o]fficial and
[individual capacities as the “Actors” so defined in
42 U.S.C. § 1983.
Inter alia, Bishay; as the Federal Victim
under the kkk Mandatory Restitution Act of 1996 (18
U.S.C. §§ 3663A and 3664) and the Restitution
Process for Victims of Federal Crimes kkk as so
promulgated by the U.S. Department of Justice (one
of the defendants named here), is indeed entitled to
a writ of mandamus under kkk 28 U.S.C. § 1361 ie'k'k
requiring said Defendants to investigate and
prosecute, once they confirmed for themselves the
veracity of the evidence they received from the
Federal Victim [RA-19-66] and the RICO violations
the Federal Victim reported to them pursuant to kkk
18 U.S.C., § 4 kkk and kkk 18 U.S.C. §§ 1961-1968
kkk
which Bishay supported with [unjeontroverted
evidence [RA-39-58] he uncovered through subpoena

-5served on Santander Bank (f/k/a Sovereign Bank)4,
all of which the Defendants did not deny receiving
from Bishay.
In the within matter, Bishay further
contended that although the Defendants are
sophisticated and presumed to know they are
mandated to investigate and prosecute the
the
misprision of felonies under Jclck 18 U.S.C. § 4
U.S. District Court, and subsequently the U.S.
Appeals Court, erroneously concluded that said
federal agency and the individuals named in
Bishay’s complaint [A-l] were somehow immune
from the “judicial review” mandated under the
Administrative Procedure Act; 5 U.S.C., § 701, § 702,
§ 703, § 704, § 705 and § 706, in the face of the
specific language set forth in § 701(a) (1) and (2),
particularly after said Defendants recklessly
contended: “My supervisor advised that we do not
have the resources to address this issue, so you
should proceed at your discretion with
prosecuting the case.”[RA-11]

4 Including Bankruptcy Court record confirming that USAX
was subject to the “exclusive” jurisdiction of the U.S.
Bankruptcy Court during all times relevant, and that a statecourt receiver; state judge and twenty three (23) accomplices
named in the evidence Bishay transmitted to the federal
agency named above, deliberately engaged in a fraudulent
state-court scheme they orchestrated to siphon off millions of
dollars in cash and other property they knew was subject to the
“exclusive” jurisdiction of the U.S. Bankruptcy Court, including
the $3.7 million in cash and other property they successfully
defalcated.

-6This egregious response, Bishay averred
below, crossed the proverbial line and immediately
subjected said Defendants to the predictable “judicial
review” mandated pursuant to the clear language set
forth in the Administrative Procedure Act upon
which this Court relied in Weyerhaeuser Co. and
Abbott Laboratories; 5 U.S.C. §§ 701-706.
This was most troubling to Bishay,
particularly in light of the two “factual” reasons
stated by said Defendants which immediately
entitled Bishay to take discovery so he could
examine said Defendants, under oath, about other
public statements they made to the contrary {infra),
in connection with their purported “lack of
resources” to (i) investigate the veracity of the
“evidence” Bishay delivered to them [RA-19-58]; and
(ii) to explain the mockery and disingenuousness of
their written response directing Bishay to
“prosecute” the twenty four (24) state perpetrators
who engaged in the seven (7) federal crimes Bishay
reported to said agency. In other words, when said
agency, through its “supervisor”, directed Bishay to
“prosecute” said twenty four (24) state perpetrators
in his capacity as an ordinary citizen, the
Defendants knew well that there is no federal
authority upon which Bishay could rely in assuming
said agency’s (FBI) prosecutorial authority which is
exclusively conferred upon said agency either by the
President of the United States, the U.S. Congress,
the U.S. Senate, or the U.S. Department of Justice,
to prosecute the federal climes listed in the
complaint (R-l; supra and infra), at the behest of the
United States; and that said “exclusive” authority

-7could not possibly extend to Bishay, as an ordinary
citizen of the United States.
On appeal below, Bishay asked the U.S. Courtof Appeals for the D.C. Circuit to determine whether
kick
under the Administrative Procedure Act; this
Court’s holding in Weyerhaeuser Co. and Abbott
the two
Laboratories; and 5 U.S.C. §§ 701-706
reason[s] stated by the Defendants (supra) justified
the Defendants’ failure to carry out the otherwise
strictly mandated investigative-prosecutorial duties,
or whether the Defendants’ stated reason[s] (supra)
must kkk under 28 U.S.C. § 1361 kkk be deemed
arbitrary, capricious, and abuse of discretion, all of
which are kkk judicially reviewable actions or
inactions under 5 U.S.C. §§ 701-706 kkk thus
requiring the District Court to issue the mandamus
Bishay sought in his complaint (A-l) pursuant to the
authority set forth in 28 U.S.C. § 1361, which
mandates all District Courts to exercise the “original
jurisdiction” specifically conferred upon said courts
as follows:
The district courts shall have original
jurisdiction of any action in the nature
of mandamus to compel an officer or
employee of the United States or any
agency thereof to perform a duty owed
to the plaintiff.
See 28 U.S.C. § 1361 (Added Pub. L. 87-748, § 1(a),
Oct. 5, 1962, 76 Stat. 744).

’

-8The Administrative Procedure Act, in the
relevant part, states as follows:
Definitions
As used in this Act-(a) AGENCY."Agency"
means
each
authority
(whether or not within or subject to
review by another agency) or the
Government of the United States other
than Congress, the courts, or the
governments
of the
possessions,
Territories, or the District of Columbia.
Nothing in this Act shall be construed
to repeal delegations of authority as
provided by law. Except as to the
requirements of section 3, there shall be
excluded from the operation of this Act
composed
of
agencies
(1)
representatives of the parties or of
representatives of organizations of the
parties to the disputes determined by
them, (2) courts martial and military
commissions, (3) military or naval
authority exercised in the field in time
of war or in occupied territory, or (4)
functions which by law expire on the
termination of present hostilities,
within any fixed period thereafter, or
before July 1,1947, and the functions
conferred by the following statutes:
Selective Training and Service Act of
1940; Contract Settlement Act of 1944;
Surplus Property Act of 1944.

-9Judicial Review
Final agency decisions are subject to
judicial review. Generally, challenges to
agency regulations have a six-year
statute of limitations.
Scope of Review
The reviewing court shall decide "all
relevant questions of law, interpret
constitutional and statutory provisions,
and determine the meaning or
applicability of the terms of an agency
action." The reviewing court must (A)
compel agency action that was either
"unlawfully withheld or unreasonably
delayed" and (B) find unlawful and "set
aside agency action, findings, and
conclusions" that are: (1) arbitrary,
capricious, an abuse of discretion, or
otherwise not in accordance with law;
(2) contrary to constitutional right,
power, privilege, or immunity; (3) in
excess
of
statutory
jurisdiction,
authority, or limitations, or short of
statutory right; (4) without observance
of procedure required by law; (5)
unsupported by substantial evidence in
a case subject to sections 556 and 557 of
Title 5 (Government Organization and
Employees) of the United States Code
or otherwise reviewed on the record of
an agency hearing provided by statute;
or (6) unwarranted by the facts to the

- 10extent that the facts are subject to trial
de novo by the reviewing court.
Standards of Review
There are three standards of review: (1)
substantial evidence; (2) arbitrary and
statutory
capricious;
and
(3)
interpretation.
The "substantial evidence" standard of
review
is
required
for
formal
rulemaking and formal adjudication.
Courts are required to uphold a rule if
they find the agency's decision to be
"reasonable, or the record contains such
evidence as a reasonable mind might
accept as adequate to support a
conclusion." Agency actions that are
invalidated by substantial evidence
review are typically abandoned.
The "arbitrary and capricious" standard
is
mainly
applied
to
informal
rulemakings. In Citizens to Preserve
Overton Park v. Volpe (401 U.S. 402),
the Supreme Court held that in order to
find agency decisions arbitrary in
informal adjudications, courts must
first "consider whether the decision was
based on a consideration of the relevant
factors and whether there has been a
clear error of judgment." In performing
this inquiry, courts cannot inquire as to
why agencies relied upon particular

-11 data to make their decisions; however,
courts can inquire as to what data the
agency reviewed. Typically, when
agency action is invalidated under the
arbitrary and capricious standard of
review, the action is remanded to the
agency to substantiate the record. In
the Motor Vehicle Manufacturers
Association of the United States, Inc. v.
State
Farm
Mutual
Automobile
Insurance, the Supreme Court held that
"the agency nevertheless must examine
the relevant data and articulate a
satisfactory explanation for its action"
including
a
"rational
connection
between facts and judgment ... to pass
muster under the 'arbitrary and
capricious' standard."
The "statutory interpretation" standard
of review involves a two-step analysis,
which derived from Chevron, U.S.A.,
Inc. v. Natural Resources Defense
Council (468 U.S. 1227). Under
Chevron, courts must first assess
whether Congress has spoken to the
"precise question at issue." To do this,
courts must look to the language and
design of the statute, as well as look to
the traditional canons of construction.
If the court finds that Congress has not
directly addressed the precise issue, the
court must then determine if the
agency's action is based on a

- 12 "permissible
construction
of
the
statute." Under Chevron, legislative
regulations are given deference unless
they are arbitrary, capricious, or
manifestly contrary to the statute.
See Administrative Procedure Act, Public Law 404 79th Congress.
Relying on the foregoing, in Weyerhaeuser
Co., this Court held, to wit: “The Administrative
Procedure Act creates a basic presumption of
•kick judicial review •kick [for] one suffering legal
wrong because of agency action", citing Abbott
Laboratories and quoting 5 U.S.C. § 702. See
Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139
S.Ct. 361, 202 L.Ed.2d 269 (2018)
Notwithstanding such clarity and the
[unjcontroverted evidence Bishay delivered to the
Defendants, confirming that the reported seven (7)
federal crimes were undisputedly carried out by a
state-court receiver and twenty three (23)
accomplices under the supervision of a state court
judge, and resulted in the defalcation of more than
$3.7 million in cash and other property belonging to
the Federal Victim named in the District Court
action, Bishay invoked his constitutional right by
seeking redress under the Mandatory Restitution Act
of 1996 (18 U.S.C. §§ 3663A and 3664), to determine
the exact amount of restitution to which he is
entitled under the Restitution Process for Victims of
Federal Crimes, as so promulgated by the U.S.

- 13 Department of Justice (one of the Defendants named
in the within action).
Notwithstanding the foregoing, however, the
U.S. District Court and the U.S. Court of Appeals for
the D.C. Circuit took matters into their own hands
and deliberately deprived Bishay from his right to
the “restitution” available to all such Federal
Victims, as set forth as follows:
In most fraud cases, restitution may be
ordered where victims of the offense of
conviction have sufferedthe loss of
money or some negotiable instrument
(investor fraud offenses or offenses
involving the misuse of stolen credit
cards), or the damage or loss of
property... The Court may order a
defendant to pay an amount equal to
each victim’s actual losses, usually the
value of the principal or property
fraudulently obtained... The Court may
order the return of property or money to
a victim or to someone a victim chooses.
The Court may also order restitution to
persons other than victims of a
convicted offense, if agreed to in a plea
agreement....
See Restitution Process for Victims of Federal
Crimes.
On April 30, 2019, against the backdrop
2.
of such clear and unambiguous governing authorities

- 14(supra), the U.S. District Court dismissed Bishay’s
complaint, sua sponte, before it issued the Summons
Bishay requested so he could serve his complaint on
said Defendants. In so erroneously dismissing, the
District Court averred that it “lacked authority” to
“judicially review” the agency’s actions or inactions
in the within matter, pursuant to 5 U.S.C. §§ 701706, and further averred that it also “lacked
authority” to issue the mandamus Bishay sought
pursuant to the authority set forth in 28 U.S.C. §
1361.
Notwithstanding the overwhelming evidence
appended to Bishay’s complaint [RA-1], which the
Defendants did not deny receiving from Bishay as
required under 18 U.S.C. § 4, the District Court
erroneously opined as follows:
“It is well-settled that a writ of
mandamus is not available to compel
discretionary5 acts... this court has no
authority to compel these defendants to
initiate a criminal investigation or to
prosecute a criminal case.” (Quotation
marks appearing in original text) (A-3)
On May 24, 2019, in response to
3.
Bishay’s Motion for Reconsideration, the District
Court further opined as follows:

5 None of the Defendants named in the within matter
enjoyed statutory [discretion; none exempt from judicial
review. See 5 U.S.C. § 701(a) (1) and (2).

- 15 This matter has come before the
Court on the plaintiffs motion for
reconsideration, which is construed as
one to alter or amend judgment under
Rule 59(e) of the Federal Rules of Civil
Procedure. “A Rule 59(e) motion is
discretionary and need not be granted
unless the district court finds there is
an ‘intervening change of controlling
law, the availability of new evidence 'k'k'k
or the need to correct a clear error
or prevent manifest injustice.
None of these circumstances is evident.”
(Quotation marks appearing in original
text; bold text provided for emphasis)...
The plaintiff seeks an order
directing the defendants to initiate a
criminal
investigation
into
and
prosecute a criminal case against
individuals who allegedly conspired to
steal the plaintiffs’ cash and other
property. The Court properly dismissed
the complaint, given its lack of
authority to compel discretionary6 acts
(citation omitted), such as the initiation
of a criminal prosecution (citation
omitted).

6 See FN-5. Supra.

- 16Accordingly, it is hereby ORDERED
that
the
plaintiffs
motion
for
reconsideration is DENIED. (A-7)
4.
Bishay timely appealed the District
Court’s dismissal and denial of his Motion for
Reconsideration, whereupon, on September 17, 2019,
the U.S. Appeals Court for the D.C. Circuit affirmed
the lower court’s proffer that it “lacked authority” to
“judicially review” the agency’s failure to investigate
or prosecute the twenty four (24) individuals who
engaged in the seven (7) federal crimes listed in
Bishay’s complaint (supra), as so mandated under 5
U.S.C. §§ 701-706; or to issue the writ Bishay sought
pursuant to 28 U.S.C. § 1361; or to permit Bishay to
recover millions of dollars in cash and other property
defalcated by said individuals (supra), pursuant to
the Mandatory Restitution Act of 1996 (18 U.S.C. §§
3663A and 3664) and the Restitution Process for
Victims of Federal Crimes, as so promulgated by the
U.S. Department of Justice (one of the defendants
named in the within action). In so affirming, the
U.S. Appeals Court for the D.C. Circuit wrote:
The district court correctly concluded
that it lacked authority to compel
appellees to initiate a criminal
investigation or prosecution based on
appellant’s allegation of a conspiracy to
deprive him of property (citation
omitted). With respect to appellant’s
contention that appellees’ decision not
to pursue such an investigation or
prosecution deprived him of his

- 17constitutional right to due process, the
court correctly concluded that “a private
citizen lacks a judicially cognizable
interest
in
the
prosecution
or
nonprosecution of another.” (A-11)
(Quotation marks appearing in original
text)
On December 27, 2019, Circuit Judges,
5.
Tatel, Rao and Sentelle, Per Curiam, DENIED
Bishay’s Petition for Rehearing. (A-14)
On December 27, 2019, Chief Judge
6.
Garland, Circuit Judges Henderson, Roger, Tatel,
Griffith, Srinivasan, Millett, Pillard, Wilkins, and
Rao, and Senior Circuit Judge Sentelle, declined to
review the District Court’s dismissal and the panel’s
affirmation of same, and stated, Per Curiam, as
follows:
Upon consideration of the petition for
rehearing en banc, and the absence of a
request by any member of the court for
a vote, it is ORDERED that the petition
be denied. (A-16)
THE RELIEF SOUGHT
If the Court swiftly concludes that the District
Court, and subsequently the U.S. Court of Appeals
for the D.C. Circuit, indeed erred when they
proffered that District Court[s] lack jurisdiction to
“judicially review” agencies’ decisions pursuant to
this Court’s holding in Weyerhaeuser Co; 5 U.S.C., §§

- 18701-706; and the Administrative Procedure Act, the
Petitioner named above respectfully moves this
Honorable Court to exercise its authority, pursuant
to Section 13 of the Act of 1789, by granting the
injunctive relief sought here through a Writ of
Mandamus directing the U.S. District Court for the
District of Columbia to judicially review the [factual]
reasons stated by the agency, where said agency
informed the victim (the Petitioner here), in writing
with impunity, that: (i) said agency “lacked
resources” to investigate and prosecute twenty four
(24) individuals who engaged in the defalcation of
more than $3.7 million in cash and other property
belonging to the Petitioner, consisting of a statecourt receiver and twenty three (23) accomplices — a
"factual" issue which must be presented to the trier
of fact (the district court here); and (ii) that the
victim should 'k'k'k in his individual capacity •k’k’k
assume said agency’s prosecutorial authority and
prosecute the twenty four individuals who
committed the federal crimes chronicled below *** at
the behest of the United States *** when said agency
was presumed to know that the victim was [n]either
authorized by the President of the United States, nor
the U.S. Congress, nor the U.S. Senate, nor the
Department of Justice, to step into said agency’s
shoes and prosecute said individuals; and that said
agency was further presumed to know that the
restitution sought pursuant to the Mandatory
Restitution Act of 1996 [18 U.S.C. §§ 3663A and
3664] and the Restitution Process for Victims of
Federal Crimes promulgated by the U.S. Department
of Justice, can only be sought by said agency [FBI]

- 19on behalf of the victim; and not by the victim
himself?
i) RICO violations, pursuant to 18 U.S.C., §§
1961-1968, documented through the evidence
transmitted to the agency by the victim pursuant to
18 U.S.C., § 4;
ii) Mail Fraud violations, pursuant to 18
U.S.C., § 63, documented through the evidence
transmitted to the agency by the victim pursuant to
18 U.S.C., § 4;
iii) Bankruptcy Fraud violations, pursuant to
18 U.S.C., § 152, documented through the evidence
transmitted to the agency by the victim pursuant to
18 U.S.C., § 4;
iv) Concealment of Debtor’s Assets violations,
pursuant to 18 U.S.C., § 3284, documented through
the evidence transmitted to the agency by the victim
pursuant to 18 U.S.C., § 4;
v) Bankruptcy Automatic Stay violations,
pursuant to 11 U.S.C., §362, documented through
the evidence transmitted to the agency by the victim
pursuant to 18 U.S.C., § 4;
vi) Misprision of felony, pursuant to 18
U.S.C., § 4, where a state judge failed to report to the
FBI or to the U.S. Attorney the $3.7 million felony
and the evidence the victim uncovered and delivered
to the state judge presiding over a state-court action
through which the victim uncovered the defalcation

- 20of more than $3.7 million in cash and other property
belonging to the victim, as he was so required
pursuant to 18 U.S.C., § 4, which the victim
uncovered through subpoena he served upon
Santander Bank, whereupon the state judge engaged
in a cover-up scheme detailed in a Concise statement
relative to the criminal, case transmitted to said
federal agency by the victim [RA-19], detailing the
violation of the federal Aiding and Abetting Statute,
18 U.S.C., § 2, which were documented through the
evidence the victim transmitted to said federal
agency pursuant to 18 U.S.C., § 4; and
vii) Obstruction of justice, pursuant to 18
U.S.C., Ch. 73, § 1509, where said state judge chose
to enjoin the victim from prosecuting any action
against the state-court’s receiver and his 23
accomplices, in any state court, who together
defalcated said cash and other property, through the
obstruction of justice scheme in which said state
judge and the twenty four (24) individuals engaged,
all of which was documented through the evidence
the victim transmitted to said federal agency
pursuant to 18 U.S.C., § 4.
REASONS FOR GRANTING THE PETITION
A writ of mandamus is warranted when a
party establishes that (1) the “right to issuance of
the writ is ‘clear and indisputable,”’ (2) the party has
“no other adequate means to attain the relief’
sought, and (3) “the writ is appropriate under the
circumstances.” Cheney v. United States Dist. Court,
542 U.S. 367, 380-381 (2004) (citation omitted).

- 21 is
reserved
for
“exceptional
Mandamus
circumstances amounting to a judicial ‘usurpation of
power.’” Id. at 380 (citation omitted). Those are the
circumstances of this case. The District Court’s
proffer that it kkk “ lacked authority” to "kick judicially
review kick the action or inaction of a federal agency
not exempt from “judicial review”; the affirmation of
such erroneous determination by the U.S. Court of
Appeals for the D.C. Circuit, is beyond appalling
based on the clarity of this Court’s holding in
Weyerhaeuser Co. v. U.S. Fish & Wildlife Seru., 139
S.Ct. 361, 202 L.Ed.2d 269 (2018); 5 U.S.C. §§ 701706; and 28 U.S.C. § 1361.

“The common-law writ of mandamus against a
lower court is codified at 28 U.S.C. § 1651(a): ‘The
Supreme Court and all courts established by Act of
Congress may issue all writs necessary or
appropriate in aid of their respective jurisdictions
and agreeable to the usages and principles of law.’”
Id. at 380
Here, the factors for mandamus are readily
satisfied. Given the clear and [un]ambiguous federal
authority conferred upon all District Courts,
pursuant to 28 U.S.C. § 1331, § 1391(b), § 1651(a),
and § 2201; 5 U.S.C. §§ 701-706; and 28 U.S.C. §
1361, and the egregious defects in the District
Court’s “lack of authority” proffer, Bishay has clearly
established a “clear and indisputable” right to relief.
Cheney, 542 U.S. at 381 (citation omitted). Bishay
has “no other adequate means” to attain the relief’
he seeks which the District and the Appeals Courts
refused to grant, erroneously contending “lack of

- 22 authority”. Id. at 380-381 (citation omitted). And
issuance of “the writ is appropriate under the
circumstances”; indeed, because the “traditional use
of the writ •kifk has been to confine” a court “to a
lawful exercise of its prescribed jurisdiction.” Id. at
380 (citation omitted). Mandamus is especially
appropriate here, because the District and the
Appeals Courts are presumed to know that the two
discrete reasons given by the Defendants named in
the complaint which was dismissed before issuing
the required Summons to serve on said Defendants,
is that (i) the agency “lacked resources”, which is a
factual issue requiring the taking of discovery; not
the dismissal of the complaint; and (ii) that Bishay,
in his capacity of an ordinary citizen, was
disingenuously directed to step into the agency’s
shoes and assume the agency’s investigative and
prosecutorial “exclusive” authority, at the behest of
the United States. Id. Therefore, there can be no
legitimate debate that both courts deliberately
abridged Bishay’s constitutional rights; clearly and
[un]ambiguously abrogated the governing federal
authority; and only this Court may now intervene by
issuing the mandamus sought through this Petition.

-23A. Bishay Has A Clear And Indisputable
Right To Relief From The District Court’s
Refusal To Issue The Mandamus Sought;
In the Alternative, For The District Court
To “Judicially Review” The Agency’s
Action Or Inaction, Pursuant To The
Administrative Procedure Act Which
Creates A Basic Presumption Of Judicial
Review [For] One Suffering Legal Wrong
Because Of Agency Action." 5 U.S.C. § 702.
Bishay’s right to the “judicial review” sought
below, under the Administrative Procedure Act; 5
U.S.C. §§ 701-706, is “clear and indisputable.”
Cheney, 542 U.S. at 381 (citation omitted).
Therefore, the District and the Appeals Courts’ “lack
of authority”
proffer
is
procedurally
and
substantially defective in numerous ways, including
the following:
1. Most fundamentally is the District Court’s
kkit
proffer that it kkk “lacked authority” •kick
“judicially review ” kkk the federal agency’s actions or
inactions, an agency which the District Court is
presumed to know is neither immune nor statutorily
exempt from “judicial review”, as set forth in the
Administrative Procedure Act; 5 U.S.C. §§ 701-706,
as follows: “The Administrative Procedure Act
creates a basic presumption of judicial review
[for] one suffering legal wrong because of
agency action", citing Abbott Laboratories and
quoting 5 U.S.C. § 702. In both matters, this Court
relied on the language set forth in Section 10 of the
Administrative Procedure Act, as follows: Any

-24person suffering legal wrong because of any
agency action, or adversely affected or
aggrieved by such action within the meaning of
any relevant statute, *** shall be entitled to
judicial review thereof’ *** pursuant to 28 U.S.C.
§ 1331; § 1391(b); § 1651(a); and § 2201, as this
Court so held in Weyerhaeuser Co. and Abbott
Laboratories. Id.
2. In Weyerhaeuser Co., this Court further
held, to wit: As we explained recently, "legal
lapses and violations occur, and especially so
when they have no consequence. That is why
this Court has so long applied a strong
presumption favoring judicial review of
administrative action”, citing Mach Mining, LLC
v. EEOC, 575 U.S. -—, ------ - ---- , 135 S.Ct.
1645, 1652-1653, 191 L.Ed.2d 607 (2015).
3. This Court further held, to wit:
“presumption may be rebutted only if the
relevant statute precludes review”, citing 5
U.S.C. § 701(a)(1), “or if the action is ‘committed
to agency discretion by law’”, citing § 701(a)(2).
4. Here, there can be no legitimate debate that
the agency named below (FBI) enjoys no discretion
under federal “statute” or “law” that could possibly
preclude “judicial review” of its action or inaction in
the within matter, under § 701(a) (1) and (2).
5. In their rulings (A-2, 7 and 11), neither the
District Court nor the Appeals Court provided a
single evidentiary or statutory support, under any

-25federal “statute” or federal “law”, to exempt or
immune said agency (FBI) from the “judicial review”
mandated under 5 U.S.C. §§ 701-706 or under any
U.S. Sup. Ct. reasoning.
6. What Bishay argued below, on the other
hand, is this Court’s specific guidance as the Court
explained that there might be some "tension"
between the prohibition of judicial review for actions
"committed to agency discretion" and the command
in § 706(2)(A) that courts set aside any agency action
that is "arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with
law", where the Court cited its earlier holding in
Heckler v. Chaney, 470 U.S. 821, 829, 105 S.Ct. 1649,
84 L.Ed.2d 714 (1985). The Court further held that a
court could never determine that an agency abus[ed]
its discretion if all matters committed to agency
discretion were [un] re viewable. 139 S.Ct. 370-371.
Precisely what Bishay vigorously argued below.
7. Moreover, the below courts’ reasoning that
the agency’s failure to investigate and prosecute the
chronicled federal crimes here (supra and infra) —
suggesting that said agency’s failure is somehow
[un] re viewable - squarely conflicts with the this
Court’s contrary holding in Weyerhaeuser Co. and
Abbott Laboratories (supra and infra)', 5 U.S.C. §§
701; 702; and 706, because the agency’s failure to
carry out its duty to investigate and prosecute the
seven (7) federal crimes alleged in Bishay’s
which
complaint
are
supported
by
[un]controverted bank records produced by
Sovereign Bank, N.A. n/k/a Santander Bank, N.A.,

-26confirming sixty eight (68) [un] authorized bank
transaction^] carried out by a state-court receiver
and twenty three (23) accomplices [RA-39-58] -- is
unquestionably a [judicially [r]eviewable activity by
the District Court and subsequently by the Appeals
Court
that
merely
rubber-stamped
such
erroneousness, so arbitrarily.
8. This Court went on to further explain that
to give effect to § 706(2)(A) and to honor the
presumption of review, this Court would have to
read the exception in § 701(a)(2) quite narrowly,
restricting it to "those rare circumstances where
the relevant statute is drawn so that a court
would have no meaningful standard against
which to judge the agency's exercise of
discretion", citing Lincoln v. Vigil, 508 U.S. 182,
191, 113 S.Ct. 2024, 124 L.Ed.2d 101 (1993).
9. Therefore, given the District Court’s abuse
of discretion in the within matter, purporting [lack]
of authority, which pursuant to this Court’s relevant
rulings is a reversible error, in the within matter the
agency’s stated reason for its failure to prosecute the
state-court receiver and his twenty three (23)
accomplices who, together, carried out the seven (7)
federal crimes alleged in the complaint concerning
the defalcation of more than $3.7 million in cash and
other property belonging to the Federal Victim
named in the action commenced below, is indeed a
judicially reviewable act. This, because, the agency
named here did not and does not enjoy absolute
discretion absent a federal “statute” or federal “law”,
pursuant to § 701 (a) (1) and (2), to inform the

-27Federal Victim that said agency lack[ed] “resources”
(supra and infra) and directed him (Bishay) to
[prosecute] said federal crimes [himself], at the
behest of the United States.
10. Thus there can be no legitimate debate
that said agency was amply aware that the Federal
Victim is neither authorized by the President of the
United States, nor by the U.S. Congress, Nor by the
U.S. Senate, nor by the Department of Justice, to
step into said agency’s shoes and assume what is
otherwise the agency’s [exclusive] prosecutorial
authority conferred upon it to investigate and
prosecute the following federal crimes:
i) RICO violations, pursuant to 18 U.S.C., §§
1961-1968, documented through the evidence
transmitted to the agency by the victim pursuant to
18 U.S.C., § 4;
ii) Mail Fraud violations, pursuant to 18
U.S.C., § 63, documented through the evidence
transmitted to the agency by the victim pursuant to
18 U.S.C., § 4;
iii) Bankruptcy Fraud violations, pursuant to
18 U.S.C., § 152, documented through the evidence
transmitted to the agency by the victim pursuant to
18 U.S.C., § 4;
iv) Concealment of Debtor’s Assets violations,
pursuant to 18 U.S.C., § 3284, documented through
the evidence transmitted to the agency by the victim
pursuant to 18 U.S.C., § 4;

-28v) Bankruptcy Automatic Stay violations,
pursuant to 11 U.S.C., §362, documented through
the evidence transmitted to the agency by the victim
pursuant to 18 U.S.C., § 4;
vi) Misprision of felony, pursuant to 18
U.S.C., § 4, where a state judge failed to report to the
FBI or to the U.S. Attorney the $3.7 million felony
and the evidence the victim uncovered and delivered
to the state judge presiding over a state-court action
through which the victim uncovered the defalcation
of more than $3.7 million in cash and other property
belonging to the victim, as he was so required
pursuant to 18 U.S.C., § 4, which the victim
uncovered through subpoena he served upon
Santander Bank, whereupon the state judge engaged
in a cover-up scheme detailed in the Concise
statement relative to the criminal case transmitted to
said federal agency by the victim [RA-19], detailing
the violation of the federal Aiding and Abetting
Statute, 18 U.S.C., § 2, which were documented
through the evidence the victim transmitted to said
federal agency pursuant to 18 U.S.C., § 4; and
vii) Obstruction of justice, pursuant to 18
U.S.C., Ch. 73, § 1509, where said state judge chose
to enjoin the victim from prosecuting any action
against the state-court’s receiver and his 23
accomplices, in any state court, who together
defalcated said cash and other property, through the
obstruction of justice scheme in which said state
judge and the twenty four (24) individuals engaged,
all of which was documented through the evidence

-29the victim transmitted to said federal agency
pursuant to 18 U.S.C., § 4.
11. It is therefore abundantly clear that (i) the
District and the Appeals Courts’ proffer is a stark
deviation from this Court’s straightforward holing in
Weyerhaeuser Co.; and (ii) such erroneous conclusion
is unquestionably of exceptional importance as a
matter of federal law, statute and public policy.
12. Accordingly, if this Court grants the
injunctive relief sought in the form of a writ of
mandamus, consistent with this Court’s holding in
Weyerhaeuser Co.; and §§ 701; 702; and 706, the
Federal Victim will finally be able to undertake the
required discovery under Rules 30-36 of the
Fed.R.Civ.P., so that said District Court would
determine, through said statutory “judicial review”,
whether the agency’s action or inaction pertaining to
the seven (7) federal crimes listed in the complaint
amount to arbitrary, capricious, and clear abuse
of discretion, in light of the “factual” reasons stated
by said agency, specifically (a) that said agency
“lacked resources” to investigate and prosecute the
seven (7) federal crimes alleged in Bishay’s
complaint concerning the defalcation of more than
$3.7 million in cash and other property belonging to
the Federal Victim, whereby the Federal Victim
would be permitted to exercise his [Constitutional
right to orally examine Special Agent Kelly Bell,
who, in March 2018, informed Bishay as follows: “My
supervisor advised that we do not have the
resources to address this issue, so you should
proceed at your discretion with prosecuting the

- 30case” [RA-11], against a public statement appearing
in the Boston Globe on March 13, 2019, where U.S.
Attorney Andrew Lelling (named in the complaint
[RA-3], confirmed the following: “We frankly had
the resources and the sophistication to take
down a case of this magnitude” (quotation marks
appearing in original public announcement), so that
the District Court in the within matter would be able
to determine whether the first factual statement is
consistent with the second factual statement; and
whether such exercise comports with the credibility
and veracity tests frequently administered by federal
tribunals through evidentiary hearings and bench
trials; and (b) similarly, pursuant to Special Agent
Bell’s
written
statement,
Bishay
would,
procedurally, be entitled to examine Special Agent
Bell, her supervisor, and U.S. Attorney Lelling on
the federal authority upon which they relied when
they directed Bishay to step into said agency’s shoes
and prosecute said seven (7) federal crimes, knowing
that Bishay was not authorized by the appropriate
governmental authority to carry out any such
prosecutorial tasks, which are otherwise exclusively
conferred upon said agency and not upon ordinary
citizens of the United States, such as Bishay in the
within matter.
13. Accordingly, therefore; consistent with this
Court’s relevant rulings (supra); §§ 701, 702; and
706, the District Court needs, at a minimum, to
permit Bishay to undertake the required discovery
under Rules 30-36 of the Fed.R.Civ.P., so that the
District Court would appropriately determine,
through an evidentiary hearing or bench trial,

-31 whether the agency named here indeed abus[ed] its
discretion when it refused to investigate and
prosecute the seven (7) federal crimes alleged in
Bishay’s complaint, contending (a) it lacked
“resources”; and (b) directed the Federal Victim to
prosecute said federal crimes at the behest of the
United States - and not the reckless dismissal of
Bishay’s complaint, which was “verified” as the
record so reflects. (RA-6)
B. Bishay Has No Other Adequate Means To
Attain The Discrete Relief Sought Below.
Mandamus is warranted to correct the District
and the Appeals Courts’ egregious errors because
Bishay has “no other adequate means” to obtain
relief from the District Court’s refusal to “judicially
review” the agency’s failure to investigate and
prosecute the seven (7) federal crimes listed in the
complaint. Cheney, 542 U.S. at 380 (citation omitted)
Here, this matter presents clear mockery,
disingenuousness and deliberate abrogation of
[un]ambiguous federal authority, particularly as the
said federal agency brazenly directed Bishay to
assume said agency’s •kirk exclusive authority *** to
investigate and prosecute said federal crimes at the
behest of the United States. Mockery and
disingenuousness the District Court endorsed by
refusing to review such reckless conduct, pursuant to
5 U.S.C. §§ 701-706; mockery and disingenuousness
the Appeals Court readily rubber-stamped knowing
well that Bishay, an ordinary citizens, is neither
authorized by the President of the United States, nor

- 32 by the U.S. Congress, nor by the U.S. Senate, nor by
the Department of Justice, to assume said agency’s
otherwise [exclusive prosecutorial authority at the
behest of the United States. Mandamus is therefore
warranted to correct such egregious errors.
C. Mandamus Relief Is Appropriate Under
The Circumstances.
Finally, and for the reasons discussed above,
mandamus relief is indeed “appropriate under the
circumstances.” Cheney, 542 U.S. at 381. As noted,
mandamus is traditionally used “to confine [an
inferior court] to a lawful exercise of its prescribed
jurisdiction”, and granting mandamus directing the
District Court in the within matter to exercise its
judicial authority, as set forth in Article III; as
cognizable constitutional right guaranteed to every
citizen including Bishay in the within matter, would
be consistent with that use. Id. at 380 (citation
omitted)
Mandamus is particularly appropriate here
because directing the District Court to judicially
review the federal agency’s action or inaction is not
left for the District Court’s discretion; but is
mandated under the federal authorities cited above.
Therefore, the “novelty of the District Court’s”
ruling “combined with its potentially broad and
destabilizing effects,” underscores that granting such
a writ is “’appropriate under the circumstances.’” See
In re Kellogg Brown & Root, 756 F.3d at 763 (quoting
Cheney, 542 U.S. at 381)

- 33 CONCLUSION
For the foregoing reasons, the Court should
issue a writ of mandamus directing the District
Court to review the agency’s failure to investigate
and, once the agency is satisfied with the veracity of
the evidence Bishay delivered to it, to prosecute the
seven (7) federal crimes chronicled in Bishay’s
complaint. Alternatively, the Court should construe
this petition as either (1) a petition for a writ of
certiorari seeking review of the Court of Appeals’
September 17, 2019 decision (A-11) or (2) a petition
for a common-law writ of certiorari seeking review of
the District Court decision dismissing the complaint,
sua sponte, (id. at A-1-6), and grant certiorari on the
questions presented.
Respectfully submitted,
BAHIG F. BISHAY,
Pro Se
P.O. Box 396
Norwood, MA 02062
March 2, 2020

